WAIVER

Supreme Court of the United States

No. 21-189

Patrick Okey ve Pennsylvania
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
i Tam filing this waiver on behalf of all respondents.

a Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

“ check the appropriate box:

Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

© Lam not presently a member of the Bar of this Court. Should a response he requested, the

yesponse will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature.

Date: g/oo{% \

(Type or print) Name es \
SM. CMs. (J Mrs, Miss

 

nite 45 Ne Geprge Steet
City & State YO, PR tpl Ho |
vrone( 11D) T= DOD. ns JEZAN KOE Old L2e YORCOUNPA.9 0

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(G) OF THE RECIPIENT(S) OF 4 COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce:
